A

^ A

v

a

i i^ou
■l r ^Imkl

>"
Hi> i

IL

IN THE
SUPREME COURT OF THE UNITED STATES

MICHAEL ANTHONY CARROLL

— PETITIONER

FILED
APR 3 0 2021

(Your Name)
vs.

STATE OF MICHIGAN

8

— RESPONDENT s

ON PETITION FOR A WRIT OF CERTIORARI TO

MICHIGAN SUPREME COURT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

MICHAEL ANTHONY CARROLL
(Your Name)

Saginaw Correctional Facility
9625 Pierce Road - MDOC
(Address)
Freeland, Michigan 48623
(City, State, Zip Code)

(Phone Number)

QUESTION(S) PRESENTED
I.

THE STATUTORY TIME LIMITS IMPOSED BY THE INTERSTATE AGREEMENT ON DETAINERS
ARE STRICTLY JURISDICTIONAL AS APPLIED TO THE CONSTRUCTION OF A COMPACT,
AND CANNOT BE WAIVED OR PROCEEDED UPON AFTER A TIME LIMIT VIOLATION! S);
FURTHER, THE FUNDAMENTAL DEFECT EXCEPTION SHOULD BE APPLIED IN CARROLL'S
IAD CLAIMS
7

II.

CARROLL'S CLAIM REGARDING AN UNSWORN .JURY IS A QUESTION OF LAW OF WHETHER
DUE PROCESS REQUIRES THAT A JURY BE SWORN UNDER THE SIXTH AMENDMENT'S
GUARANTEE TO AN IMPARTIAL JURY
30

III.

CARROLL'S DEFECTIVE JURY VERDICT FORM SHOULD BE REVIEWED UNDER THE
BRECHT STANDARD FOR SUBSTANTIAL AND INJURIOUS EFFECT AND UNDER THE
INEFFECTIVE ASSISTANCE OF APPELLATE COUNSEL CLAIM.............................. 33

PETITIONER WOULD ANSWER THESE QUESTION "YES"
RESPONDENT WOULD ANSWER THESE QUESTION "NO1

\

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

.ii

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

iii

STATEMENT OF THE CASE

.1

REASONS FOR GRANTING THE WRIT
CONCLUSION

6
36-38

INDEX TO APPENDICES
APPENDIX A - Order of the Michigan Supreme Court in Michigan v. Carroll,
2021 Mich. LEXIS 245 (Mar. 2, 2021), Reconsideration denied
APPENDIX B - Order of the Michigan Supreme Court in Michigan v. Carroll,
2020 Mich. LEXIS 2064 (Nov. 24, 2020), App. Lv. Appeal, denied
APPENDIX C - Order of the Michigan Court of Appeals in Michigan v. Carroll
2020 Mich..App. LEXIS 1856 (Mar. 11, 2020), Lv. Appeal denied
APPENDIX D - Order/Opinion of tjie Michigan Genesee Cty. Cir. Ct. in
Michigan v. Carroll, on Releief from Judgment (2nd MRJ
Aug. 8, 2019), denied
APPENDIX E
APPENDIX F

LIST OF PARTIES

Ijod All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
People v. Carroll, Genesee Cty. Cir. Ct. No. 82-31970-PC (JOS April 21, 1983)
People v. Carroll, MICOA 74712 (Oct. 29, 1985)
People v. Carroll, MISCT 77713 (June 3, 1986)
People v. Carroll, Genesee Cty. Cir. Ct. No. 82-31970-PC (MRJ Nov. 14, 2003)
People v. Carroll, MICOA 259113 (June 24, 2004)
People v. Carroll, MISCT 129114 (2005)
People v. Carroll, 475 Mich 890 (2006)
Carroll v. Burt, 2008 WL 3010784 (E.D. Mich- Aug. 4, 2008)
Carroll v. Burt, 2010 WL 2549895 (E.D. Mich. June 30, 2010)
Carroll v. Burt, 443 Fed. Appx. 991 (6th Cir. 2011)
Carroll v. Burt, 2013 WL 440167 (E.D. Mich. Feb. 5, 2013)
Carroll v. Burt, No. 13-1240 (6th Cir. 2013)

TABLE OF AUTHORITIES
Page
Kaiser Steal Corp. v. Mullins, 455 U.S. 72, 77-78 (1982).......................... 15
Kansas v. Nebraska, 574 U.S. 445, 470-71 (2015).......................................... 29
Kiramelman v. Morrison, 477 U.S. 365 (1986)................................................... 20
Lockhart v. Fretwell, 506 U.S. 364, 370 (1993)............................................ 20
Malinsky v. New York, 324 U.S. 410, 413-14, 65 S.Ct. 781, 787, 89 L.Ed.
1029 (1945)................................................................................

18

Mapes v. Coyle, 171 F3d 408, 427-428 (6th Cir. 1999)

27

McClesky v. Zant, 499 U.S. 467, 494 (1991).................

36

McLendon v. Continental Group. Inc • r 602 F.SUpp 1492, 1505 (D.N.J 1985)..15
McMullen v. Hoffman, 174 U.S. 639, 669 (1899)...................................

15

McPherson v. Blacker, 146 U.S. 1, 13 S.Ct. 3, 36 L.Ed. 869 (1892)

32

Mennonite Board of Missions v. Adams, 462 U.S. 792 (1983).............

18

Nix v. Whiteside, 475 U.S. 156 (1986).................................................

20

O'Neil v. McAnnich, 513 U.S. 432 (1995)..............................................

34

People v. Cain, 498 Mich 108 (2015).....................................................

31

People v. Estelle, 93 Mich App 449, 455 n. 3 (1979)........................ 6, 16, 19
People v. Ginther, 390 Mich 436 (1973)................................................

20

People v. Hawthorne, 474 Mich 174 (2006)............................................

33

People v. Pribble, 72 Mich App 219 (1976)..........................................

31

People v. Wade, 283 Mich App 462, 467 (2009).....................................

34

Powell v. Alabama, 287 U.S. 45, 53 (1932)..........................................

25

Pruet Prod. Co. Ayles, 784 F2d 1275, 1280 (5th Cir. 1986)

11

Reed v. Farley, 512 U.S. 339, 348 (1994)

6, 8, 9, 13, 14, 17, 18

TABLE OF AUTHORITIES
Page
Rhodes v. Guiderson Oil Tools Div.r 927 F2d 876, 878-879 (5th Cir. 1991)
11
Robertson v• Cain, 324 F3d 297, 309-310 (5th Cir. 2003)

34

Santa Maria v. Pac. Ball, 202 F3d 1170, 1173 (9th Cir. 2003)

11

Skilling v. United States, 561 U.S. 358 (2010)

31

Smith v. Alabama, 124 U.S 465, 8 S.Ct. 564, 31 L.Ed. 508 (1888)

32

Strickland v. Washington, 466 U.S. 668 (1984)

10, 20, 24, 36

Stroble v. Anderson, 587 F2d 830, 834-839 (6th Cir. 1978), cert, denied 99
S.Ct. 1298 (1979).........................................................
Taylor v. Kentucky, 436 U.S. 478, 488 n.15 (1978)

13, 18
37

Tony & Susan Alamo Found, v. Secretary of Labor, 105 S.Ct. 1953 (1985)..14
United States v. Cronic, 466 U.S. 648 (1984)

20, 24, 25, 28

United States Ex rel. Louisville Cement Co. v. I.C.C., 246 U.S. 638, 642
(1918)
United States v. Mauro, 436 U.S. 340, 343 (1978)

7
10, 13

United States v. Micky, 963 F2d 870, 874 (6th Cir. 1992)

28

United States v. Rauscher, 119 U.S. 407, 420-24 (1886)

7

Veaszie Bank v. Fenno, 75 U.S. 533 (8 Wall) 533, 19 L.Ed 482 (1869)..-.32
Virginia v. Tennessee, 148 U.S. 503, 520 (1893)

13

Von Moltke v. Gillies, 332 U.S. 708, 721 (1942)

29

Whiting v. Burt, 395 F3d 602, 617 (6th Cir. 2005)

27

Wiggins v. Smith, 539 U.S. 510, 534-36 (2003)

34

Wilko v. Swan, 346 U.S. 427, 434-38 (1953)

15

Williams v. Taylor, 529 U.S. 362, 391-92 (2000)

24

TABLE OF AUTHORITIES

STATUTES

Page

18 U.S.C. app. §2, Arts. 111(a), IV(c) (1982)

6,8, 12

MCLA 600,1111 ;MSA 27a.1111........................................

32

MCL 768.1

16, 19, 22, 23

MCL 768.14

32

MCL 780.131(2)

16

MCL 780.601

9, 10, 12, 16, 22, 23

MCL 780.603

26

COURT RULES
MCR 6.412(F)

32

MCR 6.502(G)(2)

22

MCR 6.508(D)(3)

30

MCR 8.108(B) (a-d)

32

SECONDARY SOURCES
F. Zinmerman & M. Wendell, The Law and Use of Interstate Compact 7 (1976)
15

TABLE OF AUTHORITIES
Page
Adams v. United States ex rel. McCann, 317 U.S. 269, 279 (1942)

29

Alexander v. Gardner-Danver Co., 415 U.S. 36, 51 (1974).............

4

^Adaaigh v. Y&H Corp., 546 U.S. 500, 513 (2006)...............................

17

Arizona v. California, 460 U.S. 605, 618 (1983)..........................

37

Bowen v. Johnston, 306 U.S. 19, 23-24 (1939)...............................
Brecht v. Abrahamson, 507 U.S. 619, 629-30 (1993)........................

36
.28, 33

Brooklyn Sav. Bank v. O’Neil, 324 U.S. 697 (1945)........................

14

Cada v. Baxter Healthcare Corp • r 920 F2d 446, 450-51 (7th Cir. 1990).14
Carchman v. Nash, 105 S.Ct. 3401 (1985)

13

Casper v. Ryan, 822 F2d 1283, 1285 n. 2 (3rd Cir. 1987)

9

Cone v. Bell, 129 S.Ct. 1769, 1784 (2009)............

30

Cooke v. United States, 267 U.S. 517, 537 (1925)

29

Cuyler v. Adams, 449 U.S. 443 (1981)....................

13

Cuyler v. Sullivan, 446 U.S. 335 (1980)

24

Dennis v. United States, 339 U.S. 162, 171 (1950)...............

31

Enright v. United States 434 F.Supp. 1056 (S.D. N.Y. 1977)

6, 16

Evitts v. Lucey, 469 U.S. 387 (1985)......................................

27

Ex Parte Coy, 32 F. 911, 917 (W.D. Tex. 1887)

13

Fry v. Pliler, 551 U.S. 112, 119-120 (2007)

33

Glus v. Brooklyn E. Dist. Terminal, 359 U.S. 231 (1959)

11

Henderick v. Lindsey, 93 U.S. 143, 149 (1876)

14

Hill v. United States, 368 U.S. 424, 428 (1962)
Jackson v. Edwards, 404 F3d 612, 627-28 (2d Cir. 2005)
Jones v. Barnes, 463 U.S. 745 (1983)

8, 9, 14,18
34
20, 27

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
and a copy of the
Appeals on the following date: ____________
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ 2 For cases from state courts:
The date on which the highest state court decided my case was Nov, 24, 2020.
A copy of that decision appears at Appendix__B____
(X& A timely petition for rehearing was thereafter denied on the following date:
Ma_c. 2* 2021
, and a copy of the order denying rehearing
appears at Appendix _A
[ ] An extension of time to file the petition for a writ of certiorari was granted
N/A
to and including
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
AMENDMENT VI
In all criminal prosecutions, the accused shall enjoy the right...to have
the Assistance of Counsel for his defence.
AMENDMENT XIV
Section 1. All persons bom or naturalized in the United States and subject
to the jurisdiction thereof, are citizens of the United States and of the
State wherein they reside. No State shall make or enforce any law which shall
abridge the privileges or immunities of the citizens of the United States;
nor shall any State deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.
18 U.S.C. app. §2, Art. 111(a), IV(c), VI(a) (1982)
MCLA 780.601 at seq.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[X| For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_h.... to the petition and is
[Xl reported at 2021 Mich. LEXIS 245 (Mar. 2, 2021)
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the Michigan Supra-na Court
court
appears at Appendix___to the petition and is
1'4 reported at 2020 Mich. LEXIS 2064 (Nov. 24, 2020)
; or,
[ 3 has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

STATEMENT OF THE CASE
Petitioner Michael Anthony Carroll had been serving a 20 year sentence
in the State of Arkansas for Aggravated Robbery in 1982. On May 7, 1982,
while serving this sentence at the Cummings Prison Unit* a detainer was placed
on him for murder in the State of Michigan. Carroll on the same day signed
a final disposition request in accordance with the Interstate Agreement on
Detainers* MCL 780.601, hereafter "IAD".
On September 23, 1982/-139 days after requesting final disposition of the
detainer* law enforcement agents from the City of Flint* Genesee County,
Michigan took custody of Carroll. Carroll arrived in Michigan on September
24, 1982, which marked the 140th day of the IADs Art. Ill* and day 1 of the
calculation of the 120 day provision of Art. IV of the IAD.
On September 29, 1982, Carroll was arraigned in the 68th District Court
for the City of Flint and 145th day under Art. III. On September 30, 1982,
the 146th day into Art. Ill* he was appointed counsel* and 6 days had elapsed
under Art. IV.
On October 29, 1982, Carroll was bound over to the Circuit Court on the
175th day of his 180 days under Art. Ill* and 36 days had concurrently passed
under the 120 day provision of Art. IV(c). There was no annotations in his
District Court file of the IAD, nor* had appointed counsel discussed any
IAD knowledge or IAD time limits of the 180 days under Art. 111(a).
On November 8, 1982, 10 days after the bindover to Circuit Court, Carroll
was arraigned in the Circuit Court on the 185th day in violation of Art.
111(a), and 46 days had passed within the 120 day provision of IAD Art. IV(c).
The State of Michigan continued to proceed as if they had complied with Art.
111(a) 180 day time limitation.

1.

On January 11, 1983, the 110th day of the 120 day provision of MCL 780,601,
Art. IV(c), a pre-trial conference was held, and 69 days had passed from
the expiration of the 180 provision of Art. 111(a). On January 21, 1983,
Art. IV(c)1s 120 period expired uninterrupted , and 14 days before the alleged
waiver on February 4, 1983.
On February 4, 1983, the alleged waiver date. Art. 111(a) - 180 day period
had expired by 93 days, and concurrently, 14 days had passed on the expiration
of the 120 provision of Art. IV(c). Per all pre-trial records in the District
and Circuit Courts^ there had been no discussion or notice by the Court or
Prosecutors of the IAD. The record does reflect that Carroll's court appointed
counsel was unable to function as counsel guaranteed by the Sixth Amendment
as he was acting under an actual "Cbnflict of Interest".
This recorded conflict of interest claim is the first constitutional claim
that caused a fundamental defect, and jurisdictional defect, since counsel
under the conflict could not promote the absolute defense of the IAD, which
resulted in a miscarriage of justice. Additionally, any Speedy Trial waiver
promoted by appointed was inapplicable since it was under MCL 768.1; void
since Carroll was specifically a an IAD prisoner under MCL 780.601.
On or about March 19, 1983, Carroll retained attorney Kenneth M. Siegel,
who entered an appearance and substitution for court appointed counsel Joseph Baessler, on March 21, 1983. On March 21, 1983, Attorney Siegel during
a motion hearing was denied an adjournment on his recant appointment for
the purpose of investigation, preparation and research of Carroll's case.
Notably, the People [APA Lazzio] raised for the first time the issue of the
IAD, indicating that Carroll had rights under the IAD, She specifically raised
the 180 day provision of the IAD, but misrepresented to the trial court and
counsel, that the 180 day period had not expired using a calculation which
was specified only for the Art IV(c) duration.
2.

•This Court may further note the continuing fundamental defects of Carroll's
IAD claims were constitutional, where retained counsel was surprised on the
belated announcement of the IAD, and counsel argued the wrong dates for the
Art. 111(a) duration period of the 180 day period. Counsel announced the
180 day period started on September 26th or 27th 1982 dates, which were his
incorrect arrival dates to Michigan, and inapplicable to Art. 111(a), VI(a).
Ihe non-disclosure and misrepresention of the IAD by the prosecutor,, affected
retained counsel's ability to be effective.
Noteworthy, the People did not surrender its IAD file to retained counsel
on the March 21st motion hearing date, nor, previously to appointed counsel;
vis-a-vis, retained counsel did not request production of Carroll's IAD file
to make further argument on the IAD, contending at this late point in time
Carroll could waive the IAD, which was false, supporting ineffectiveness.
The Court without referring to MCL 780.601, or compelling production of
the IAD documents, denied the 180 day IAD claims on an inapplicable waiver
after two time limitation violations of Arts. 111(a), IV(c), and VI(a), which
mandated a calculation of Arts. 111(a), IV(c). The failure to comply with
any articles of the IAD subjected Carroll's case for dismissal, moreover,
the three violations on March 21, 1983, was cause for lost of subject-matter
jurisdiction - further, the denial of the right to effective counsel under
the Sixth Amendment amounts to a fundamental defect and miscarriage of justice*
These ineffective assistance of counsel claims under the Cronic/Strickland
standards required a presumption of prejudice sufficient to authorize the
release of Carroll on IATC/IAD grounds, as his proceedings were fundamentally
unfair and unreliable.

3.

These ineffective assistance of counsel claims on appointed and retained
counsels under constitutional law requires a presumption of prejudice, as
explained in arguments presented.
On April 8, 1983, Carroll was found guilty of 1st Degree Murder and on
April 21, 1983, was sentenced to LIFE and given credit for 211 days spent
in custody prior to sentencing. Carroll was thereafter returned to Arkansas.
'

Appellate counsel - Earl Spuhler was assigned and after review of the trial
record submitted a brief on appeal on Carroll's behalf without consulting
on the issues selected.

Carroll did not have consultation with counsel prior

to submission of his brief on appeal and only received a letter of notice
of counsel appointment while in prison in Arkansas.
The appellate brief notably mentioned the IAD [only] in the Statement of
Facts, but articulated an incorrect assumption of the IAD, because counsel
never on the record waived the IAD.

Had appellate counsel raised the IAD

claims that are apparent of^the face of the record, and promoted the-IAD
defense on appeal, coupled with Ineffective assistance of counsel/conflictof-Interest claim - which had recently been ruled on by this Cburt in Cronic
and Strickland, Carroll s case was likely to have been vacated on the Conflict
of Interest grounds of Cronic, cumulative effect of deficient performance
of Strickland, and lost of subject-matter jurisdiction under the multiple
IAD violations in this case.
Per the initial filings in the Michigan State Courts, his habeas claims
would have bean pre-AEDPA, and the procedural bars under MCR 6.500 et seq
•i
would not have been presence.

Counsel oh direct appeal did not raise any

ineffective assistance of counsel claims, though an apparent conflict of
interest was announced to the trial court on February 4, 1983.

4.

Carroll's procedural history is cited as:
People v. Carroll, Genesee Cty. Cir. Ct. No. 82-31970-FC (JOS April 21, 1983)
People v. Carroll, MICOA 74712 (Oct. 29, 1985)
People v. Carroll, MISCT 77713 (June 3, 1986)
People v, Carroll, Genesee Cty. Cir. Ct. No. 82-31970-FC (MRJ Nov. 14, 2003)
People v. Carroll, MICOA 259113 (June 24, 2004)
People v. Carroll, MISCT 129114 (2005)
People v. Carroll, 475 Mich 890 (2006)
Carroll v. Burt, 2008 WL 3010784 (E.D. Mich. Aug. 4, 2008)
Carroll v. Burt, 2010 WL 2549895 (E.D. Mich. June.30, 2010)
Carroll v. Burt, 443 Fed. Appx. 991 (6th Cir. 2011)
Carroll v. Burt, 2013 WL 440167 (E.D. Mich. Feb. 5, 2013)
Carroll v. Burt, No. 13-1240 (6th Cir. Aug. 14, 2013)
People v. Carroll, Genesee Cty. Cir. Ct. No. 82-31970-FC (MRJ Aug. 8, 2019)
People v. Carroll, 2020 Mich. App. LEXIS 1856 (Mar. 11, 2020)
People v. Carroll, 2020 Mich. LEXIS 2064 (Nov. 24, 2020)
People v. Carroll, 2020 Mich. LEXIS 245 (Mar. 2, 2021)
Petitioner raised the constitutionality of his conviction and sentence,
where his conviction was based on jurisdictional defects of (1) IAD's 180
and 120 day Compact provisions, (2) jurisdictional defect in jury impaneling
oath/swearing, (3) defective jury verdict form; each premised on ineffective
assistance of counsel grounds and ineffective assistance of appellate counsel
grounds.
Per the record before this Court, the last reasoned opinion of the State
Court failed to indicate a procedural bar or, that relief was not cognizable
under any Michigan Court Rule or statute. The Court declining to review the
constitutional claims on "IATC" or IAC on appellate counsel to overcome any
procedural defaults.

5.

REASONS FOR GRANTING WRIT
Petitioner Carroll was denied Due Process of Law and Equal Protection,
where the Michigan State courts failed to abide by the Compact of the Inter­
state Agreement on Detainers - "IAD," under its statute - MCL 780.601 et sag.,
where the time limits imposed under the IAD were violated by the willful
failure to count the time periods under Articles 111(a) and IV(c) pursuant
to Article VI(a) of the Compact. Further the trial court allowed the court
appointed counsel to continue to represent Petitioner under a Conflict of
Interest. This case involves the failure to disclose the IAD file under the
rules of discovery, and ineffective assistance of retained counsel due to
his inability and restriction by the trial court to prepare the case, research
and investigate contrary to the Sixth Amendments guarantee to effective
counsel. On Due Process grounds, appellate counsel was ineffective for failure 2*>
raise an absolute defense, the IAD, and these other meritorious grounds which
would have resulted in dismissal of Carroll's state charges in Michigan.
The dismissal in the State of Michigan would have resulted in a lowered
custody level and earlier release from the ADOC.
The questions subject-matter jurisdiction and a fundamental defect, which
caused a miscarriage of justice, are Due Process of Law questions, so closely
related under the IAD, that authorities discuss the together. See Hill v.
United States, 368 U.S. 424, 428 (1962); See e.g • r Enright v. United States,
434 F.Supp 1056 (S.D. N.Y. 1977).
In Enright, the District Court for the Southern District of New York, held,
"[W]here the alleged violation is constitutional in nature or goes to a juris­
dictional defect, a collateral attack is always permitted." Id at 1058. See
also People v. Estelle, 93 Mich App 449, 455 n.3 (1979)(citing Enright v.
United States, 434 F.Supp 1056 (SD N.Y. 1977)(IAD Case)).

6.

This Court in Reed v. Farley, 512 U.S. 339, 348 (1994), further supports
this fundamental defect inherently resulting in a complete miscarriage of
justice [or] omission inconsistent with the rudimentary demands of fair pro
-cedures standard. Reed, Id., citing Supreme Court case on this standard.
Petitioner's claims to this Court are not speculative, as the documentary
evidence submitted to the State Courts are due proofs that there were obvious
jurisdictional defects, and constitutional grounds that cannot be overlooked
regarding the presumption of prejudice under this Court's ruling IATC and
appellate counsel regarding the fundamentally fair proceeding under the Due
Process Clause.
Further, this Court has reason to GRANT relief where State of Michigan
Courts did not employ the rules of statutory construction, equitable doctrines
in review of the legal analysis of Petitioner's claims.

Petitioner Michael Anthony Carroll now presents the following grounds for
review as reason granting the Great Writ.

I.

THE STATUTORY TIME LIMITS IMPOSED BY THE INTERSTATE AGREEMENT ON DETAINERS
ARE STRICTLY JURISDICTIONAL AS APPLIED TO THE CONSTRUCTION OF A COMPACT,
AND CANNOT BE WAIVED OR PROCEEDED UPON AFTER A TIME LIMIT VIOLATION*S);
FURTHER, THE FUNDAMENTAL DEFECT EXCEPTION SHOULD BE APPLIED IN CARROLL'S
IAD CLAIMS.
Petitioner Carroll raises on certiorari that the Interstate Agreement on

Detainers - "IAD", is strictly jurisdiction to the subject-matter and cannot
be waived under its construction as a Congressionally approved Compact. See
United States v. Rauscher, 119 U.S. 407, 420-24 (1886)(extradition aggreements
limits the subject-matter under which prisoner is to be tried); 18 U.S.C.
app. §2; Art. 111(a), IV(c) (1982). See also United States ex rel. Louisville
Cement Co. v. I.C.C., 246 U.S. 638, 642 (1918)(holding, "the lapsing of a
statute of limitation contained in a statute, a condition on the statutory

7.

right created, is jurisdictional, limiting the power of the adjudicating
body").
The circumstances of IAD violations are reviewable under a "Fundamental
Defect which inherently results in a miscarriage of justice, so that it
"presentfs] exceptional circumstances where the need for the remedy afforded
by the writ of habeas corpus is apparent." See Reed v. Farley, 512 U.3. 339
(1994); Hill v. United States, 368 U.S. 424, 428 (1962).
In this case at bar, it is without question that Petitioner Carroll was
a prisoner under the IAD Compact, per the detainer placed on him by the State
of Michigan to the Arkansas Department of Corrections - ADOC. See MRH Exhibit
C- MI Detainer (5/7/82).
Petitioner presents due proofs that the State of Michigan took custody
of him from the ADOC under the IAD on September 23, 1982. See MRJ Exhibit
D - Temp. Custody Form (9/23/82).
On Septanber 24, 1982, Petitioner was delivered to the State of Michigan.
The applicable IAD statute for Michigan is MCL 780.601 for the enforcement
of contractual agreement entered with Michigan and Arkansas to secure Carroll
from the ADOC. Further, Michigan agreed to abide by such IAD conditions as
signed by the Oourt and prosecutor of the appropriate jurisdiction. On this
date of Septanber 24, 1982, both articles 111(a) and IV(c), were active for
calculation under article VI(a).
On Carroll s 120 day claim, in accordance with the explicit commands of
the IAD, his trial was to commence by January 21, 1983. Petitioner's trial
was neither schedule in accord with the IAD mandated time limitation, nor
1.
held by January 21, 1983.
Mate 1 - Carroll's R3A

vs that there vere no nrtioB file! hy court appointed cansaL which

interrupt ths tine limits for dtsrassal cn his Articles m(a) artf iv(c) claims.
8.

What is noteworthy is that no party raised or acknowledged the IAD in open
court until the expiration of both the 180 and 120 provisions had long since
expired.
On March 21, 1983, after Carroll had retained counsel, the Prosecution
announced for the first time that Carroll was an inmate./ [prisoner] in the
State of Arkansas, and under the Uniform Detainer Act or something of that
nature - announcing the 180 day time limit, which had to be specifically
addressed. (MT, 3/23/83 at 7-10).
Contrary to the requirements of the IAD the issue was not addressed per
the MCL 780.601, arts. 111(a), VI(a), nor did the People present retained
counsel with the IAD file belatedly announced. Egregiously, counsel did not
request the IAD file in possession of the prosecution.

This non-disclosure

and misrepresentation are IAD violations in and of themselves, as explained
under equitable exceptions.
This late disclosure by the prosecutor to the trial court, is the specific
violation that this Court should address under Reed, for addressing the
fundamental defect test articulated in Hill. Reed, 512 U.S. at 355-364.
The first indicator of a fundamental defect under the IAD, is an absence
of notice of the IAD to promote the agreement and to encourage the expeditious
and orderly disposition of such charges and determination of the [proper
status] of any and all detainers based on untried indictments, informations
or complaints under MCL 780.601, art. I.
It is well established that the Interstate Agreement on Detainers adopted
standard forms. See Casper v. Ryan, 822 F2d 1283, 1285 n.2 (3rd Cir. 1987).

9.

Hare the IAD Form I - Notice of Untried Indictement, Information, or
Complaint and Right to Request Disposition, is the [only] form that cites
the mandatory language that a prisoner shall be brought to trial within 180
days ...after having cause to be delivered to said prosecuting officers
jurisdiction written notice of the place of his imprisonment...". See Sample
IAD Forms as Offer of Proof.
The language of Form I was the similar language used by APA Lazzio on the
March 21, 1983 proceedings where she stated the 180 day provision and that
carroll was a prisoner in Arkansas under the detainer act. (MT, 3/21/83 at
10).

Therefore, this Court may infer that APA Lazzion was in possession

of this document and Carroll's complete IAD file to entitle him to review
under the 180 day provision of MCL 780.601, art. 111(a) and calculation of
the duration period under art. VI(a).
Further, IAD Form I provides the States notice of the only waiver authorized
by the IAD Compact sanctioned by Congress. Congress enacted the Interstate
Agreement on Detainer Act, Pub. L. No. 91-5338, 84 Stat. 1397 (1970)(codified
at 18 U.S.C. App. (1982)), the United States and Washington, D.C. participate
fully in the IAD as "states". See United States v. Mauro, 436 U.S. 340, 343
(1978).
IAD Form II, identifies prisoner's Sixth Amendment right to counsel, whether
appointed or retained. Thus, providing all IAD documents to counsel in the
receiving state is paramount to secure the IAD prisoner's state and federal
rights to effective counsel upon deliver from the sending State. Further,
to an IAD defense which is an absolute defense. See Strickland v. Washington,
466 U.S. 668, 681 (1984)(If there is only one plausible line of defense.
counsel must conduct a "reasonably substantial investigation" into that line
of defense).
10.

Petitioner contends that the non-disclosure and misrepresentation by the
Genesee County Assistant Prosecutor [Lazzio] in this case, equitably estopped
the State from claiming a statute of limitation tolling defense against the
Petitioner- The equitable exceptions of discovery and fraudulent concealment
are applicable to Petitioner's IAD claims, and reviewable as fundamental
defects, where the non-disclosure and/or belated discovery claims affected
his right to affective counsel under the Sixth Amendment.
A.

EQUITABLE ESTOPPEL DOCTRINE
Under the doctrine of Equitable Estoppel, there is an equitable principle

that, "One may not take advantage of one's own wrong". See Glus v. Brooklyn
E. Dist. Terminal, 359 U.S. 231, 232-33 (1959).
This equitable doctrine is applicable to Petitioner's case for IAD habeas
relief, where the late disclosure by the prosecutor on March 21, 1983, of
Carroll being an IAD inmate hindered his right to promote an IAD defense
through his appointed and reatined counsels.

It was evident that all of

Carroll's statute of limitations under the IAD had expired under Arts. Ill(a)
and IV(c).

The 180 day period in November of 1982, and the 120 day period

in January of 1983.
The prosecution specifically announced the addressing of the IAD, and argued
against dismissal under Art. 111(a) grounds, and misrepresented the 180 day
calculation contrary to Arts. Ill(a) and VI(c). Thus, reasonable reliance
on a fraudulent concealment is required for application of equitable estoppel.
Santa Maria v. Pac. Bell, 202 F3d 1170, 1173 (9th Cir. 2000). See also Rhodes
v. Guiberson Oil Tools Div., 927 F2d 876, 878-79 (5th Cir. 1991)(citing Pruet
Prod. Co. v. Ayles, 784 F2d 1275, 1280 (5th Cir. 1986)(applying equitable
estoppel where employer concealed or misrepresented facts to support a
discrimination charge).
11.

In context of the statute of limitation laws contained in the Compact of
the IAD, the prosecutor took actions which prevented Petitioner or counsels
from complying with the IADs statute of. limitations being enforced. Thus,
this Court may find that the State was estopped from asserting their IAD
statute of limitations defense against Petitioner Carroll. See e.g.,, Cada
v. Baxter Healthcare Corp., 920 F2d 446, 450-51 (7th Cir- 1990)(stating that
equitable estoppel is a general principle that is not confined to statute
of limitations framework, and can be applied if a defendant takes affirmative
steps to impede the plaintiff from suing in time, such as promising to refrain
from pleading the statute of limitations as a defense).
This Court, however, has not articulated a comprehensive interpretive
approach for determining when Congress intends to include (or exclude) a
consideration in a statute of limitations.
In this case, as many federal statutes of limitations do not contain a
discovery rule of accrual. The limitations provisions merely requires that
a plaintiff to file the action within a certain period of time from the date
of the cause of action "accrues" or "arises". See e.g., 28 U.S.C 2401(b)(2000)
(indicating that statute of limitations for a tort claim filed against the
United States); 45 U.S.C. 56 (2000)(the statute of limitations of the Federal
Employers Liability Act).
Accordingly, whether the discovery rule of accrual or any other equitable
exception should be imported into a federal statute of limitation necessarily
requires an inquiry into Congressional intent, using well-know rules of
statutory construction.
Here, Congress placed in its construction of the IAD Compact two specific
mandatory statutes of limitations, for the purpose of argument; (1) the 180
day provision, and (2) the 120 provision. See 18 U.S.C. app. §§2, art. 111(a),
art. IV(c)• See also MCL 780.601, art. 111(a), IV(c).
12.

Congressional understanding of the IAD is important, as an indicator of
what this federal law demands- See Stroble v. Anderson, 587 F2d 830, 834839 (6th Cir. 1978), cert, denied, 99 S.Ct. 1298 (1979).
This Court has looked to discern the legislative intent of Congress in
each of its decisions construing the IAD. See Reed v. Farley, 512 U.S. 339
(1994); Carchman v. Nash, 105 S.Ct. 3401 (1985); Cuyler v. Adams, 449 U.S.
443 (1981); United States v. Mauro, 436 U.S. 340 (1978).
The IAD Compact claim is properly raise before this Court, as a federal
law subject to federal construction. Carchman, 105 S.Ct. at 3403. Further,
since the IAD contains statutes of limitations, a plenary review of a federal
statute is appropriate to grant the Writ and dismiss- . }the conviction and
sentence imposed on this Petitioner, under the IADs construction as a Compact
and a federal law.
B.

THE IAD CANNOT BE WAIVED OR PROCEEDED UPON AFTER A TIME LIMIT VIOLATIONS
The IAD is not merely a federal statute, but, rather, an interstate compact.

This distinction is critical because a compact is not subject to unilateral
alteration. A compact establishes a contractual relationship between the
signatory states. See Virginia v. Tennessee, 148 U.S. 503, 520 (1893)(Compacts
... cover all stipulations affecting the conduct and claims of the parties).
Further, the IAD explicitedly states that it is a contract in its preamble.
See 18 U.S.C. app. §2, preamble ("The contracting States solemnly agree...")
(emphasis added).
In Ex Parte Coy, the District Court for the Western District pointed out
an obvious point of law regarding extradition treaties that, "[pjrisoners
cannot waive provisions of an extradition treaty because he is a third party
to the contract". Coy,

32 F. 911, 917 (W.D. Tex. 1887).

13.

This Court in similar fashion has accepted this premise of law as applied
to other Congressional created acts.
In Brooklyn Sav. Bank v. O'Neil, 324 U.S. 697 (1945), this Court ruled
"no waiver allowed of rights under the Fair Labor Standard ACt". Again, in
Tony & Susan Alamo Found, v. Secretary of Labor, 105 S.Ct. 1953 (1985)(same;
purpose of the FLSA "requires that it be applied even to those who would
decline its protection"). See also ALexander v. Gardner-Denver Co., 415 U.S.
36, 51 (1974)(refusing to allow individual to waive cause of action conferred
by Title VII of the Civil Rights act because to do so "would defeat the para­
mount congressional purpose behind Title VHI").
Thus, the circumstances of the State's claim of an IAD violation by waiver
and Carroll's claim that the IAD cannot be waived are reviewable under the
construction of the Compact and federal law, and reviewable as a "Fundamental
Defect" which inherently results in a miscarriage of justice, so that it
"present[s] exceptional circumstance where the need for the remedy afforded
the writ of habeas corpus is apparent." See Reed, 512 U.S. at 342; Hill,
368 U.S at 428.
The IAD Compact sets forth conditional promises in both the sending and
receiving states to act. The receiving state allows the prisoner, as a third
party beneficiary to the contact between the states to enforce the IAD seeking
specific performance of the contract. See e.g., Henderick v. Lindsay, 93
U.S. 143, 149 (1876)(A third party to a contract may enforce that contract
whan it is made for his benefit).

14.

In this case at bar. Petitioner could not waive his IAD rights for several
reasons, primarily because, "a statutory right conferred on a private party,
tut affecting the public interest, may not be waived or released if such waiver
or release contravenes the statutory policy." See e.g. Wilko v. Swan, 346
U.S. 427, 434-38 (1953)(refusing to allow investor to waive "judicial trial
and review" of claim under the Securities act of 1933 against a securities
brokerage firm); McLendon v. Continental Group, Inc., 602 F. Supp. 1492,
1505 (D.N.J. 1985)(rights granted by § 510 of ERISA are unwaivable; even
assuming identity of the employees with the union, waiver is "neither
statutorily permissible nor logically possible").
The public interest represented by the IAD, overrides any desires of the
prisoner to act contrarily to its provisions. See e.g • H Kaiser Steel Corp.
v. Mullins, 455 U.S. 72, 77-78 (1982)(refusing to enforce contract violating
both the Sherman Act and the Taft-Hartley Act "only on account of the public
interest")(quoting McMullen v. Hoffman, 174 U.S. 639, 669 (1899)).
Thus, logically and legally Petitioner could not waive an expired statute
of limitations, as in this case. The Article III(a) violations occurred before
his arraignment "AOI" in circuit court on November 8, 1982. Secondly, the
120 day violation of Article IV(c) occurred on January 21, 1983, calculated
at eleven days before the February 4, 1983, waiver by the State of Michigan.
Petitioner contends that in violation of Article VI(c) the actual time limit
violation of the 120 days was 14 days before February 4, 1983.
It is without question that the IAD was drafted with reference to and was
intended to be analyzed in light of the [entire] body of legal principles
applicable to the interpretation of statutes. See e.g., F. Zimmerman & M.
Wendell, The Law and Use of Interstate Compacts 7 (1976)("The substantive
law of compacts is principally contract law").
15.

In People v. Estelle, 93 Mich App 449 (1979), the Michigan Court of Appeals
was well aware for IAD relief that, "for a waiver to be effective it must
be show that there is a right, Enright v. United States,

434 F. Supp 1056

(S.D. N.Y. 1977), since the record in the instant case does not show that
defendant was told what his rights were under the IAD, we do not base our
decision on waiver," Id. 93 Mich App at 455 n.3.
Without question there is no IAD waiver on the record, and in accordance
with the explicited commands of the IAD as a Compact, a waiver is not allowed
by a prisoner since he is a third party beneficiary to the contract between
the states.
Petitioner's alleged waiver, which was cited as him acting contrary to
the IAD, was an erroneous ruling, because there is no waiver of an expired
statute of limitation, and the alleged waiver of February 4, 1983, occurred
after Articless III(a) and IV(c) had long since expired.
This Court may find that the trial court explained on February 4, 1983,
a Speedy Trial waiver under MCL 768.1, rather than the applicable law of
MCL 780.601. The 180 day rule is not actually written in 768.1, but rather
MCR 6.004(A)(C).

The Michigan Supreme Court being cognizant of MCL 768.1,

and MCL 780.131(2) 180 day rule, did not purposely include MCL 780.601 which
contained similar rules, but was aware of the statutory construction of the
specific and general rule - IAD is a specific statute applicable only to
IAD prisoners. Alternatively, 768.1 and MCR 6.004(A)(C) is applicable to
all criminal pre-trial detainees.

16.

Secondly, the Court erred in the denial of relief on the 180 day violation
when raised on March 21, 1983, where the Court failed to calculate the days
of the IAD provision announced, ruling that a prior waiver had occurred.
This was a clear violation of Article VI(a), and Carroll's due process, right
to equal treatment and protection as other similarly situated IAD prisoners.
The Court had an independent duty to treat Petitioner exclusively as an IAD
prisoner for his grant or denial of relief to be specifically addressed in
this instance.

This Equal Protection/Due Process claim is constitutional

and falls into the category for a "Fundamental Defect" review under Hill.

Certiorari should be granted, where the alleged waiver of the IAD was
inapplicable under the IAD provisions as a Compact, Statute of Limitations,
and Subject-matter jurisidction, which cannot be waived or forfeited. See
Arbaugh v. Y&H Corp. ,

546 U.S. 500, 513 (2006)("Subject-matter jurisdiction

involves a court's power to hear a case, and can never be forfeited or waived").

C.

THE FUNDAMENTAL DEFECT EXCEPTIONS SHOULD BE APPLIED IN CARROLL'S IAD
CLAIM.
Petitioner contends that Reed v. Farley, and part of its holdings are

specifically applicable to the determination for relief in accord with the
Hill fundamental defect standard. Id. 512 U.S. at 339-341.
In this case at bar. Petitioner's case does not resemble Reed's, nor, in
his submitted arguments, because Carroll has an aggregate of constitutional
violations shown on the face of his pre-trial, and appellate records during
tteappeal of rights. Without question had these IAD and Constitutional claims
been addressed in the trial court, there would have been no need for a trial
upon compliance with the IAD Compact.

17.

It is well-established in law that the most important limitations on the
power of government is found in the Fifth and Fourteenth Amendments to the
Constitution, entitlements to Due Process- These amendments prohibit the
national and state governments, respectively, from depriving any person of
life, liberty, or property without due process of law.
As a result of liberal interpretation of the Constitution, the Due Process
Clause is now held to be a guarantee of protection from unreasonable procedures
and unreasonable laws. See Mennonite Board of Missions v. Adams, 462 U.S.
792 (1983). It is also held to be a guarantee of equal protection of the law
and guarantees of protection of significant interestsPetitioner had a significant interest under due process of law to being
treated exclusively as an IAD prisoner, the sola purpose behind Michigan
initiating the IAD proceedings to obtain him for compliance with the Compact
on the untried indictment, information and complaint in accordance with the
safeguards of "due process of law" and "equal protection of the law". Stroble
v. Anderson, 587 F2d at 831 (quoting Malinski v. New York, 324 U.S. 401,
413-14, 65 S. Ct. 781, 787, 89 L. Ed. 1029 (1945)).
This Court has stated that habeas review is available to check violations
of federal law when the error qualifies as "a fundamental defect which
inherently results in a complete miscarriage of justice [or] an omission
inconsistent with the rudimentary demands of fair procedures-" Reed, 512
U.S. at 348 (citing cases).
Unlike Reed, Petitioner does have aggravating circumstances rendering "the
need for the remedy afforded by the writ of habeas corpus--- apparent."
Hill, 368 U.S. at 428.

18.

Further, Reed's argument for entitlement to habeas relief based on the
IAD"s speedy trial provision "effectuates a constitutional right,

the Sixth

Amendment's guarantee to a speedy trial, is misplaced as the IAD is a Compact
and a federal statute. The Sixth Amendment - [Speedy Trial] is inapplicable
to the IAD, as IAD time limitations for trial only apply to IAD prisoners
under the Compact's statutory and contractual provisions.
Petitioner raised the following argument to the trial court on relief from
judgment on his IAD claims, co-joined with IATC and appellate counsel. See
MRJ Issue II at *10.
II. DEFENDANT IS ENTITLED TO RELIEF FROM JUDGMENT WHERE THE TRIAL COURT
COMMITTED AN ERROR OF LAW CONTRARY TO MCL 780.601, ARTICLE III, WHERE IT
FAILED TO TOLL WHETHER 180 DAYS HAD ELAPSED FOR DISMISSAL UNDER THE IAD;
THE TRIAL COURT ERRED AS A MATTER OF LAW WHERE IT ADVISED THE DEFENDANT TO
WAIVE HIS SPEEDY TRIAL BY CITING AN INAPPLICABLE 180 DAY RULE; DEFENDANT'S
OF LAW; ALATERNATIVELY,
WAIVER IS VOID SINCE
__ . IT WAS ACCEPTED UNDER MISADVICE ____
_
mi-i
TRIAL AND APPELLATE COUNSELS WERE CONSTITUTIONALLY INEFFECTIVE FOR FAILURE
TO KNOW AND RESEARCH THE LAWS APPLICABLE TO DEFENDANT'S CASE AND ASSERT THEM
IN A TIMELY MANNER; DEFENDANT'S CONVICTION AND SENTENCE SHOULD BE SET ASIDE
AS TIME BARRED UNDER THE PROVISIONS OF THE IAD. U.S. CONST. AMS. VI, XIV.
In Issue II, Petitioner presented to the trial court its mistake by the
lack of knowledge that he was an IAD prisoner and advising him to waive his
speedy trial [constitutional rights] under MCL 768.1, which encompasses the
Sixth Amendment's right to Speedy Trial. The language employed by the court
is found in MCL 768.1 and MCR 6.004(A)(C). See Adj. Hrg. 2/4/83 at *5.
On February 4, 1983, Articles 111(a) and IV(c) had expired before the motion
date set for the adjournment hearing. This Court cannot find in any prior
proceedings, that any clerk of the court, attorney, prosecutor or member
of the bench made an implicit or explicit mention of the IAD. This Court
has made it clear that, "Judges and prosecutors are players who are expected
to know the straightforward requirements and to make simple time calculations
at the outset of the proceedings against a transferred defendant. Reed, 512
U.S. at 570-571.
19.

Petitioner's arguments in Issue II contained Due Process arguments and
denial of his Sixth Amendment guarantees to effective assistance of counsel,
and on Due Process grounds under the Fourteenth Amendment the right to the
effective assistance of counsel on appeal, by the failure to raise the obvious
IAD violations* Conflict-of-interest* IATC and mistakes of law by the court.
These constitutional violations support relief under the then recent precedent
of Jones v. Barnes, 463 U.S. 745(t9Q3); Strickland v. Washington, 466 U.S. 668
(1984); See also United States v. Cronic* 466 U.S. 648 (1984).
This Court has made clear that a criminal defendant alleging prejudice
under the Strickland test must show that errors committed by counsel were
so serious as to deprive the defendant of a fair trial. See Kimmelman v.
Morrison, 477 U.S. 365 (|H86). Error by counsel so serious as to upset the
"adversarial balance" between the defense and prosecution is the essence
of an ineffective assistance of counsel claim. Nix v. Whiteside, 475 U.S.
157 (1986), and an analysis based solely on outcome determination, "without
attention to whether the result...was fundamentally unfair or unreliable
is defective." Lockhart v. Fretwell, 506 U.S. 364, 370 (1993).
Petitioner moved the trial court on relief from judgment for an evidentiary
hearing pursuant to MCR 6.508(C); People v. Ginther* 390 Mich 436 (1973),
on his ineffective assistance of counsel grounds under the Strickland standard
for both trial and appellate counsels. Further citing the miscarriage of
justice standard and under the Cronic standard - presumption of prejudice
that his court-appointed counsel labored under an [actual] on record stated
conflict-of-interest. That the Court could find IATC on the IAD grounds raised.
The claims raised in the evidentiary motion had been thoroughly, federalized
for review. See Mtn. Evid. Hrg. (1/23/2018).

20.

The trial court was supplied with due proof of Petitioner's asserted claims,
and notably the last reasoned opinion by the state trial court declined to
place a procedural bar on the denial of relief from judgment under the rules
second or successive. See MCR 6.502(G)(2). Thus, this claim is ripe for review
by this Court on the constitutional grounds that were not addressed on their
merits.
Petitioner in the Michigan Suprane Court moved for an Article VI(a) time
calculation of his Article 111(a), IV(c) violations for dismissal of the
case. See Defendant-Appellant' s In Pro Per Motion for Leave to Supplement
Amendment (9/2020).
This time calculation by Petitioner demonstrated the following:
a. The IAD was triggered by Michigan placing detainer on Carrol on May 7,
1982, while in prison in Arkansas. See MRJ Exhibit C - Detainer;
b. Defendant on May 7, 1982, signed his request for final disposition, which
triggered the 180 day period of the IAD Art. 111(a);
c. On September 23, 1982, Michigan accepted custody of CArrol, 139 days
after final disposition request of this prosecutor initiated proceedings.
See MRJ Exhibit D - Temp. Custody Receipt;
d. On September 24, 1982, Carroll arrived in Michigan on the 140th day of
the 180 days of Art. 111(a); and triggering day 1 of the 120 day provision
of the IAD, Art. IV(c);
e. On September 30, 1982, Carroll was appointed Joseph Baessler as counsel
on the 146th day of Art. 111(a), and 6 days into the 120 days of Art. IV(c);
f. On October 29, Carroll was bound over to the Circuit Court on the 175th
day of his 180 days of Art. Ill(a), and 36 days had concurrently passed under
the 120 day provision of Art. IV(c);
g. On November 8, 1982, [10 days] after the bindover to the Circuit, the
AOI occurred on the 185th day, 5 days had expired passed the 180 day time
period of Art. 111(a), concurrently 46 days had passed with the 120 day time
period of Art. IV(c). The Court and the People continued to proceed as if
they complied with the Compact's statutory time limit of the 180 days under
Art. Ili(a);
21.

h. On January 11, 1983, pra-trial conference was held on the 110th day of
the 120 day provision of MCL 780-601, Art. IV(c); and 69 days passed the
expired 180 days of Art. Ill(a);
i. On January 21, 1983, Art. IV(c) 120 day provision expired uniterrupted
- 14 days before the alleged Speedy Trial waiver under MCL 768.1, which was
recited to Carroll on February 4, 1983;
j. On February 4, 1983, the alleged waiver date. Art. 111(a) violation had
occurred 93 days prior, and the Art. IV(c) violation occurred 14 day prior
on January 21, 1983.
On March 21, 1983, a motion hearing was conducted with Kenneth Siegel [retained] appearing as substituted oounsel. (MT *3). Counsel moved for an
adjournment on multiple grounds due to recent retention on March 18, 1983(3-6). The Prosecutor opposed the defense's motion on multiple grounds. (7-12).
APA Lazzio placed the trial court on notice of the end of the court term,
which held a remaining two weeks and that the Court's docket was very crowded
in APril. (9). The prosecutor was very aware of the 180 day for Speedy Trial
purposes [Sixth Amendment], where the record reflects her concern for four
of five people in the April term that ware set for trial on violent crimes.
(9).
APA Lazzio further placed the Court on notice that Carroll was under the
TAD for the first and only time since her appearance as the prosecutor of
this case. (10).
Miss Lazzio:

Judge, there is ona other issue too, that Mr. Carroll is
currently an inmate I believe in the Scate of Arkansas, and
he is present in the State of Michigan under the Uniform Detainer
Act or something to that nature, and according to that, we are
bound to try him in the hundred and eighty days, so there has
be a specific addressing of that issue.

Mr. Siegel:

If that's the case, I think the hundred and eighty days have
already passed.

Miss Lazzio:

They have not, Judge.

Mr. Siegel:

Mr. Carroll informs me that he thinks he got here September
26th or 27th, and he is willing to waive his right to trial
within a hundred and eighty days in any event.

22.

Mr. Carroll informs me that whan it was adjourned before, Mr.
Baessler request, he already put on the record his agreement
to waive the hundred and eighty day requirement.
The Court:

Well, I remember him doing that, and I remember scheduling the
caoe for trial at that time, and the trial schedule was arranged
to accommodate this case, Mr. Siegel.
If I adjourn it again, I am going to, it's going to have an
affect on a whole lot of other case that have been scheduled
as they ware because this trial was adjourned before,
How many witnesses do you have subpoenaed. Miss Lazzio.

(MT, 3/21/83, pp. 10-11).
This disposition of the notion hearing supports that an Article 111(a)
violation occurred by the Court's failure to address the IAD pursuant to
the Compact's agreement terms of Articles 111(a), VI(a). Carroll was entitled
to his Due Process of Law and Equal Protection by the simple counting of
the duration and expiration period of MCL 780.601, Art. 111(a), under Art. VI(a).
The historical facts, supports that Carroll was never advised of his IAD
rights prior to the February 4, 1983, hearing, nor did the Court obtain a
specific waiver in accordance with the expressed language of the IAD, but,
rather, the language of MCR 6.004(A)(C), recital for MCL 768.1 - Speedy Trial.
See Adj. Hrg, at 2/4/83 at 5.
Carroll expressed in his motion for relief from judgment, the court's error
in statutory construction between the IAD statute versus Speedy Trial statute.
See MRJ Mem. of Law in Support at *15.
Carroll further employed the legal reasoning that an expired statute of
limitation cannot be waived under the IAD. Further, Carroll demonstrated
by the record a constitutional reason why he had not promoted an IAD defense
on February 4, 1983, that Attorney Baessler was laboring under a conflict
of interest, the reason for the adjournment, stating, "It would be difficult.
23.

if not impossible to prepared for trial." (2-3). Farther, that the prosecutor
had not been ready for trial before February 4, 1983, because of a trial
before this court.(3).
These constitutional problems that Petitioner had incurred pre-trial on
"IATC" grounds were so prevalent in the States and Federal Courts that by
the 1980's this court laid a series of precedent cases on the constitutional
duties and responsibilities regarding the effective representation of criminal
defendants. See e.g., Cuyler v. Sullivan, 446 U.S. 335 (1980)(Conflict of
Interest). See also United States v. Cronic, 466 U.S. 648 (1984); Strickland
v. Washington, 466 U.S. 668 (1984)(IATC).
These three case in particular address the specific circumstances of the
constitutional violations that concurrently affected Carroll's IAD relief
and serve as the requisite causes for a "Fundamental Defect" determination
for relief.
Attorney Baessler, first and foremost labored under a conflict of interest
which affect his trial preparation and discerning of any defenses due Carroll,
specifically, the IAD defense. See Williams v. Taylor, 529 U.S. 362, 391 —
92 (2000)("there are ...situations in which it would be unjust to characterize
the likelihood of a different outcome as legitimate "prejudice"). In rare
cases, such as this one where the burden is meet by showing a reasonable
probability of a different outcome but for counsel's error. However, due
to concerns about fundamental fairness, the court may also examine whether
counsel's ineffective assistance "deprivefd] the defendant of a substantive
or procedural right to which the law entitles him." Williams, 529 U.S. at
392-93.

The IAD defense was such a right in this case.

24.

In regards to Attorney Siegel* the impediment of his preparation, research
and investigation of the case was shown on the March 21, 1983 motion hearing.
Counsel's retention so close to the hearing was a circumstance that he could
not provide effective assistance* due to the belated and surprise announce
that his client was an IAD inmate. Therefore,, without adequate notice counsel
could not prepare an IAD defense* which was an "absolute defense."
In United States v. Cronic* this Ocurt noted circumstances that warrant
the presumption of prejudice. Prejudice occurs when the circumstances as
such that "even a fully competent [attorney], could [not] provide effective
assistance of counsel." Cronic, 466 U.S. at 659. Circumstances falling into
this category includes the appointment of counsel "so close upon trial [or
hearing] as to amount to denial of effective and substantial aid." Id. at
660(quoting Powell v. Alabama, 287 U.S. 45, 53 (1932))(emphasis added).
Petitioner's trial record demonstrates that Siegel was retained the weekend
prior to the [Monday] March 21, 1983 motion hearing, and was not prepared
for trial, least of all a surprise notice of the IAD. The record reflects
such unpreparedness, where counsel cited the wrong dates for the Art. 111(a)
argument before the Court.
Further* the dates cited were applicable to Art. IV(c) to determine the
120 day calculation for Art. VI(c). Egregiously, counsel contended that he
could waive the IAD statutory time limits, under the IAD Compact. Therefore*
counsel inability to research laws applicable to his client's defense, an
unawareness that Carroll was an IAD prisoner* supports a different result
but for counsel's error and that if raised or properly argued the IAD claim(s)
were ripe for dismissal.

25.

Moreover, the State conceded to this fact, that had counsel moved for the
dismissal under the 120 that it would have been granted. See People's Answer
in Opposition to Defendant's Application for Leave to Appeal - MISCT No. 129114
(12/22/05).
The State being represented by Donald A. Kuebler, Chief, Research, Training
& Appeal, Assistant Prosecuting Attorney for Genesee County in opposition
made the following concessions:

a. That on March 21, 1983, - "trial prosecutor opposed the second request
for request for continuance. The prosecutor being cognizant of the Interstate
Agreement of Detainers, pointed out that the defendant was an Arkansas prison
inmate, but that he was present in Michigan for trial in the case sub judice"
[Trans. Mar. 21, 1983, pp. 7-9] Brief in Op. at 9.
b. The discussion concerning defendant's motion for trial continuance between
defendant, defense counsel, the trial prosecutor and the trial court, appeared
to involve the 180 day speedy trial provision of the IAD. Brief at 10.
c. Had defendant gone to trial on February 4, 1983, as originally scheduled,
his trial would have commenced on day 131, or eleven days beyond the 120
day period. Had a motion been made pursuant to Article IV, an. order for
dismissal may have been appropriate. Brief at 13.
d. Had the trial court denied defendant's first request for continuance
defendant may well have sought reversal after conviction on appeal because
defense counsel was not prepared to conduct the trial. Brief at 13-14.
APA Kuebler saw every fundamental defect in Carroll's case regarding the
IATC, and omissions of appellate counsel, rather than promote the purpose
of the IAD, per the IAD Compact's agreement, he denounced them - stepping
on the fabric of Carroll's constitutional claims of the Sixth and Fourteenth
Amendment of the Federal Constitution. Brief at 22-23.

Writ should be granted where Petitioner has demonstrated that the State
of Michigan contrary to MCL 780.603, knowingly, and willfully refused to
enforce the agreement and effectuating its purpose, as admitted by State
in its responsive pleadings and opinions/orders of the State Courts•

26.

D.

ineffective assistance of appellate counsel as shown was a OCNSTITWITONAL
VIOLATION UNDER THE DUE PROCESS CLAUSE AND WAS CAUSE FOR FAILURE TO RAISE
THE NUMEROUS IATC GROUNDS AND IAD DEFENSES.

Petitioner had a Due Process right to effective assistance of appellate
counsel on his direct appeal. See Evitts v. Lucey, 469 U.S. 387 (1985); Jones
v.Barnes, 463 U.S. 745, 749 (1983). The standard for judging ineffective
assistance of counsel is the same for both trial and appellate lawyers under
the Strickland standard. See Whiting v. Burt, 395 F3d 602, 617 (6th Cir.
2005).
. The Sixth Circuit Court of Appeals has suggested the following list of
considerations that ought to be taken into account in determining whether
an attorney on direct appeal has performed reasonably competently. See Mapes
v. Coyle, 171 F3d 408, 427-428 (6th Cir. 1999)(list is not exhaustive, nor
designed to produce a correct "score," and is merely offered as list to be
considered).
What the Sixth Circuit saw for consideration of the ineffective claims,
as applicable to Petitioner are - his omitted issues were significant and
obvious, i.e • » IATC, IAD, Conflict-of-interest, and the impediment of the
IAD defense attributable to the prosecution and court; Carroll's inability
to meet with appellate counsel and go over possible issues since he had been
returned to Arkansas to complete his prison term. Lastly, Carroll's issues
of relief from judgment(s) were clearly stronger than those presented on
direct appeal.
On July 13, 1984, appointed appellate counsel, Earl R. Spuhler P20863,
only raised three grounds, none of which were - IATC, the IAD, or the Conflict
of Interest, which ware apparent of the face of the pre-trial record.

27.

Moreover, the Genesee County Prosecutor's office on the IAD claim found
that had counsel raised the 120 claim it may have been grounds for dismissal.
See MISCT Appellee Brief in Op. at 13.
Carroll raised in his second motion for relief from judgment, which attacked
the judgment of denial of his original 180 day claim raised pre-trial, and
the ruling of his original motion for relief from judgment on the 120 day
IAD claim, asserting that the Courts misapplied the IADs congressional intent
and the waiver ruling as applied to his case.
Carroll further raised several structural trial court errors, the swearing
[absence of oath] to inpanel his jury, and the jury verdict form's absence
of a general "NOT GUILTY" verdict on due process grounds. These claims were
along with the IAD raised as jurisdictional defects.
Appellate counsel could have, but did not raise these claims. Thus, the
existence of certain structual defects in a trial, such as in this case.
as the deprivation of the right to counsel, requires automatic reversal of
the conviction, because it infects the entire trial process. See Brecht v.
Abrahamson, 507 U.S. 619, 629-30 (1993).
This Court has routinely found constitutional error without any specific
showing of prejudice to a defendant when the counsel is either totally absent,
' or prevented from assisting the accused during a critical stage of the
proceedings. Cranic, 466 U.S. at 659, n. 25; United States v. Minsky, 963
F2d 870, 874 (6th Cir. 1992).
For all intended purposes. Petitioner was denied his right to counsel from
apparent conflict of interest of appointed counsel; on the recently retained
counsel first appearance stating his need for preparation, and investigation
to research Carroll's case - surprise IAD notice. Cranic, Id. at 659.
28.

Had appellate counsel himself researched the laws and facts of the case,
he could have raised that Carroll did not waive the IAD at anytime, since
the accused must "know what he is doing1 so that "his choice is made with
eye open." Adams v. United States ex rel. McCann, 317 U.S. 269, 279 (1942).
Petitioner pre-trial, trial or appeal never had the counsels guaranteed
under he Sixth and Fourteenth Amendment, where these counsels failed and/or
were impeded from being effective. This Court in Von Moltke v. Gillies, 332
U.S. at 708 (1942), held:
"It is not for a lawyer to fabricate defenses, but
he does have an affirmative obligation to make
suitable inquiry to determine valid ones exist.
Such duty is imposed for salutary reason that
'prior to trial an accused is entitled to rely
upon his counsel to make an independent examination
of the facts, circumstances, pleadings and laws
involved and then offer his informed opinion as
to what plea should be entered.'" Id. at 721.
Under due process of law, « m m requires that the accused should be advised
of ithecharges and a reasonable opportunity to meet the defense, or by an
explanation! This includes the assistance of counsel, if requested, and the
right to call witnesses to give testimony, relevant to the issue of complete
exculpation or in extenuation of the offense and in mitigation of the penalty
imposed. See Cooke v. United States, 267 U.S. 517, 537 (1925)(emphasis added).
In this case. Certiorari should be granted because Carroll's IAC claims
and IAD claims involves the Court's authority to enforce Compacts, and the
ability to provide remedies necessary to prevent abuse. This Court may further
invoke the equitable principles as consistent with the Compact itself, to
devise fair solutions to disputes and provide effective relief for violations.
See e.g • r Kansas v. Nebraska, 574 U.S. 445, 470-71 (2015).

29.

II.

CARROLL*S CLAIM REGARDING AN UNSWORN JURY IS A QUESTION OF LAW OF WHETHER
DUE PROCESS REQUIRES THAT A JURY BE SWORN UNDER THE SIXTH AMENDMENT'S
GUARANTEE TO AN IMPARTIAL JURY. U.S. CONST. AMS. VI, XIV.

Petitioner raised in the Michigan State Courts that his judgment of sentence
was void due to the absence of the verbatim swearing to enpanel his jury
and that this claims was cognizable for relief fran judgment pursuant to
MCR 6.508(D)(3), as a jurisdictional defect.
This Court may further consider that Petitioner raised a claim that there
was cumulative effect of trial errors which denied him due process and that
the trial record supports the fundamental unfairness and unreliable results
- and that due process of law was denied by the cumulative effect of trial
counsel's deficient performance and should be evaluated for their prejudicial
effect under the Strickland standard.
Further, this Court may note that in Petitioner's Statement of Jurisdiction
for relief from judgment, the citation of controlling Michigan case law and
federal law that his claims were jurisdictional and his judgment and sentence
were void as a nullity, and could raise an "Actual Innocence" claims to avoid
any procedural bars.
Moreover, a cursory review of the last reasoned opinion by the trial court
shows that it did not place any procedural bars in the denial for relief
from judgment. Further, avoided addressing the IATC claims on their merits
or on appellate counsel grounds to avoid such procedural bars.
When a state court fails to adjudicate a habeas petitioner's claims on
the merits, federal habeas review is not subject to the deferential standard
contained in §2254 (d) and a federal court is required to review that claim
de novo. Cone v. Bell, 129 S.Ct. 1769, 1784 (2009).

30.

Hare* the trial court addressed the jury oath issue as a [sufficiency]
to the oath. The argument before this Court is that the oath to be charged
for inpaneling the jury by statute is mandatory, and in accordance with due
process of law is to be transcribed. Further, the absence of the transcribed
oath is reviewable to ascertain if due process of law was constitutionally
adhered to under the Sixth Amendment's guarantee to an impartial jury, and
the Fourteenth Amendment's equal protection of the law.
The problem with the state's denial of relief was premised on a People
v. Cain,

498 Mich 108 (2015), where the state Supreme Court disregarded

past case law, which disregarded past case law which allowed for automatic
reversal for an unsworn jury. See People v. Pribble, 72 Mich App 219 (1976).
This Court should note in Cain, the lengthy dissent by Justice Viviano,
who laid out the historical and common law history of the swearing/oath for
inpaneling a criminbal jury. Cain, 498 Mich at 129-161 (dissenting Viviano,
J»,) •
Further, pointing out the holdings in other states that failure to swear
the jury constitutes a mistrial and/or a jurisdictional defect. Cain, Id.
See also Dennis v. United States,

339 tJ.S. 162, 171 (1950) (holding, "an

impartial jury is one that can honor their oath").
Therefore, the inpaneling oath is the latchkey to a properly inpaneled
jury that is affirmed to try the case in a just and impartial manner and
in accordance to the law and evidence. See Skilling v. United States, 561
U.S. 538, S98-99 (2010). The absence of the oath to determine the duty imposed
on the jury, questions whether the jury in Petitioner's case met the demands
of the Sixth Amendment for an impartial jury.

31.

Tha oath's procedural and substantive due process of law are found in the
statute - MCL 768.14 and in applicable court rule* MCR 6.412(F) regarding
the mandatory charging of the swearing/oath. See also MCLA §600.1111;MSA
27a.1111; MCR 8.108(B)(1)<a-d).
It is well-established law that, "[CJourts* in construing constitution,
are obligated to resort to historical evidence* and to seek meaning of words
in use and in opinion of those whose relations to government, and means of
knowledge, warranted them to speak with authority." Veaszie Bank v. Fenno,
75 U.S. 533 (8 Walls) 533, 19 L.Ed. 482 (1869). Thus, the interpretation
of Constitution is necessarily influenced by fact that its provisions are
framed in language of English Cannon law and are to be read in light of its
history. Smith v. Alabama, 124 U.S. 465, 8 S.Ct. 564, 31 L.Ed 508 (1888);
Me Pherson v. Blacker, 146 U.S. 1, 13 S.Ct. 3, 36 L.Ed 869 (1892).
Tiie Michigan state courts knew that the common law history of the jury,
that a criminal jury must be affirmed by oath. Moreover* due process of law
enjoins upon the jury that the jury be given notice of their legal obligations
as jurors upon oath - MCL 768.14. Further* at any stage that the accused
be able to challenge the validity of the oath reviewable of direct and/or
collateral reviews.
This Court looking again at the Cain case* Cain's jury was given tha voir
dire oath, which did not bind them to their obligation to judge the evidence
under the law. Thus, as in Petitioner's case the absence of the correct oath
was not supported by the transcribed record, but, the other charging oaths
were provided. Therefore, there is no reason to assume that Petitioner's
jury were constitutional affirmed absence record of tha oath.

32.

In this matter before the Court there is not a Supreme Court precedent
regarding whether the absence of an unsworn jury is a structural error .
and jursidictional defect on Sixth Amendment grounds as argued by Petitioner
to the State of Michigan.

Therefore, Petitioner moves this Honorable Court

grant Certiorari on the Due Process grounds that the Sixth Amendment requires
a verbatim swearing of the jury oath, or reversible error occurs, and a new
trial in all cases should be ordered.

III.

CARROLL'S DEFECTIVE JURY VERDICT FORM SHOULD BE REVIEWED UNDER THE
BRECHT STANDARD FOR SUBSTANTIAL AND INJURIOUS EFFECT AND UNDER THE
INEFFECTIVE ASSISTANCE OF APPELLATE COUNSEL CLAIM. U.S. CONST. AMS
VI, XIV.

The passage of the AEDPA in 1996, did not replace the Brecht standard of
"substantial and injurious effect"; Brecht remains the correct standard of
review in assessing the prejudicial impact of federal constitutional error
in a criminal trial in state court. See Fry v. Plilar, 551 U.S. 112, 119120 (2007); Brecht v. Abrahamson, 507 U.S. 619 (1993).
Petitioner on relief from judgment raised that he was entitled to relief
from judgment since his jury verdict form was absence a general "NOT GUILTY"
verdict of the listing of [all] his possible verdicts. See MRJ Exhibit I
- Jury Verdict Form (4/8/83).
As opined in the opinion of denial, the trial oourt observed the correct
legal standard, that the criminally accused is entitled to a properly
instructed jury. People v. Hawthorne, 474 Mich 174, 182 (2006) MRJ Op. at
2 (8/18/19).

33.

Further, "the accused is entitled to a properly formulated jury verdict
form". MRJ Op. at *2. Per Petitioner's pleadings and the opinion of denial
there ware ten possible verdicts in this case. Op. at *3.
The Court noted that this error was not preserved and counsel expressed
satisfaction, and clear error must be established to warrant relief. Moreover,
no post-conviction effort nor post-appeal endeavor addressed the error claimed
now. Op. at 513, p. 3.
The Gourt further opined that a verdict form is erroneous if it forestalls
the possibility of a general verdict of not guilty and/or by its flow compels
only a guilty verdict. See People v. Wade, 283 Mich App 462, 467 (2009).
The denial of relief was based on the fact that counsel agreed to the jury
instruction, but missed the point of Carroll's numerous deficient acts of
performance of trial counsel, and did not analyze this claim;' •
under the Strickland standard to assess the deficient performance in aggregate
to determine prejudice. See Wiggins v. Smith, 539 U.S. 510, 534-36 (2003)(The
totality of errors must be considered to properly determine prejudice). MRJ
Br. at 29.
Under the Brecht standard, "if the judge has "grave doubt," meaning "the
matter is so evenly balanced" as to whether the error had a substantial and
injurious effect, the judge must find if favor of habeas petitioner." O'Neal
v. McAninch,

513 U.S. 432 (1995). Sea a.g •» Robertson v. Cain, 324 F3d 297,

309-10 (5th Cir. 2003)(erroneous jury instruction effectively enabling jury
to convict defendant of murder without specific intent to kill created a
grave doubt on reliability of verdict); Jackson v. Edwards, 404 F3d 612,
627-28 (2d Cir. 2005)(federal habeas relief granted because the jury
instruction violated due process).

34.

Here in accord with the Brecht standard the trial court did find doubt
in the jury verdict form and stated. "[Wjhile another verdict form - one
listing an option of not guilty for each of the numerous charges - would
have been a legitimate option..." Op. at 4.
The real question for review is, was the formulation of the jury verdict
form have the possibility to confuse or mislead the jurors into a verdict
on the highest charge. Noteworthy, the jury verdict form was read to the
jury.
This Gcurt may note that in this case, the trial court did not engage in
its duty to review this claim for "substantial and injurious effect or
influence in determining the jury's verdict under this Court's precedent
cited in this case.
Petitioner contends that the failure to include a choice of NOT GUILTY
to align with each stated possible verdict, was erroneous and misled his
jury which denied him the right to have a [properly] instructed jury...
where the evidence did not support that defendant intended to rob and/or
murder the decedent • See MRJ Amend/Supplement to MRJ at 513, p. 4.
Further, the failure to review these claims under the applicable standard
of review of Strickland for both trial and appellate counsels, this Court
may further review these claims as contrary to or an unreasonable applicable
of Supreme Court precedent as cited in Petitioner's arguments to the State
Courts.
Writ of Certiorari should be granted on Ground Three upon the finding of
error in the jury verdict and/or on the IATC claim and appellate counsel
claim, a structural error review is therefore appropriate.

35.

CONCLUSION

In conclusion, Petitioner Carroll claims support the granting of certiorari,
where the IATC claims amount to a constructive and/or actual denial of counsel
contrary to the Sixth Amendment's right to counsel under both the Cronic
and Strickland standards- See Strickland, 466 U.S. at 692. Petitioner then
would be entitled to the presumption of prejudice.
Further, on the IATC grounds applicable to the IAD, this Court may employ
the applicable equitable doctrines when evaluating the misrepresentation
by the State Prosecutor by failing to timely disclose the IAD to the court
and trial counsel for IAD relief.
The consideration requested is that this Court review these claims under
well-established Compact laws and application, where Congress considered
all legal consideration when it created the Interstate Agreement on Detainer,
and set forth specific statute of limitation laws in the contractual agreement
terms of the IAD as a Compact, and incorporated subject-matter juridiction
clause. See BOwen v. Johnston, 306 U.S. 19, 23-24 (1939)("If it be found
that the Court had no jurisdiction to try the petitioner, or that in its
proceedings his constitutional rights have been denied, the remedy of habeas
corpus is available"); Hill v. United States, 368 U.S. 428 (Fundamental defect
resulting in a miscarriage of justice).
This Court is well aware of the "miscarriage of justice pre-AEDPA standard
Supreme Court case - McClesky v. Zant, 499 U.S. 467, 494 (1991), and Sawyer
v. Whitley, 505 U.S. 333, 346-47 (1992), which permit Petitioner to show
actual innocence on successive claims, petitioner must show by clear and
convincing evidence that no reasonable juror would have found him eligible
for death penalty under applicable state law.
36.

Petitioner contends that where the State of Michigan has admitted error
and that an IAD violation, and Petitioner has shown other acts that constitute
IAD violations, logically he could not have been tried and found guilty;
therefore, with no jurisdiction to find Petitioner guilty in a criminal matter
the presumption of innocence does not disappear. An "Actual Innocence" and
"Legally Innocence" claims are conjunctive and may be applied to overcome
28 U.S. 2244(b)(2)(B).
Petitioner's Innocence claim premised on the cumulative due process IAD,
IATC, trial court errors and prosecutorial misconduct further allows this
Court to review relief request under the individual harmless errors requiring
reversal because of their cumulative effect. See Taylor v. Kentucky, 436
U.S. 478, 488 n. 15 (1978)(cumulative errors violate due process guarantee
of fundamental fairness and necessitate new trial).
Lastly, the law of the case doctrine, does not prohibit the court's power
to reconsider those ruling, as the law of the case doctrine is discretionary.
Arizona v. California, 460 U.S. 605, 618 (1983). Rather, "A clear conviction
of error on a point of law.. .will prevail over the "law of the case." Id.
618.
WHEREFORE, Petitioner Michael Anthony Carroll humbly prays that this Court
review the asserted claims for plenary review, as the claims assert questions
of law important to the construction and interpretation of the IAD applicable
to the 48 signatory states, and where the states are in controversy where
there is no Supreme Court precedent on the applicability of the oath as a
constitutional Sixth Amendment guarantee for an impartial jury.

37.

This Court should therefore order the Respondent to forward the complete
State file, pleadings to the State Courts and provide this Court with the
complete IAD file and correspondence transmitted between Arkansas and Michigan
to ascertain the knowledge of the Court and prosecutor of receiving state's
jurisdiction for IAD compliance.
Alternative order responsive pleadings of the parties regarding any of
the allegations in this petition, or relief this Honorable Court may deem
appropriate.

Respectfully submitted,

Date: April <3? , 2021

/s

/ MtUi

Michael Anthony'Carroll #149733
Petitioner In Pro Se
Saginaw Correctional Facility
9625 Pierce Road - MDOC
Freeland, Michigan 48623

38.

